U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 17, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Comcast Cable Communications LLC v. Promptu Systems Corporation,
S.Ct. No. 20-1220

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 26,
2021, and placed on the docket on March 3, 2021. The government’s response is due on April 2,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 3, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1220
COMCAST CABLE COMMUNICATIONS, LLC
PROMPTU SYSTEMS CORPORATION

JAMES L. DAY
FARELLA BRAUN MARTEL LLP
235 MONTGOMERY STREET
17TH FLOOR
SAN FRANCISCO, CA 94104
415-954-4400
JDAY@FBM.COM
JESSICA A. HUDAK
GIBSON, DUNN & CRUTCHER LLP
3161 MICHELSON DRIVE
IRVINE, CA 92612
949-451-3837
MARK ANDREW PERRY
GIBSON, DUNN & CRUTCHER LLP
1050 CONNECTICUT AVENUE, NW
WASHINGTON, DC 20036-5306
202-887-3667
MPERRY@GIBSONDUNN.COM

